No. 20IN THE SUPREME COURT OF THE UNITED STATES
NOVEMBER TERM, 2020

EL AEMER EL MUJADDID,
Petitioner,
ANDREW BREWER; JOSH ROWBOTTOM; BRIAN FERGUSON; GREGG
PERR; SUSAN GRAUBART; COREY AHART; MARION KARP; DENNIS P.
MCINERNEY; WESTAMPTON TOWNSHIP COMMITTEE,
Respondent.
STATE OF NEW JERSEY,
Respondent,
EL AEMER EL MUJADDID,
Petitioner.

PROOF OF SERVICE

l

I El Aemer El Mujaddid served by U.S. Mail a copy of 1) Motion to proceed
Informa pauperis, 2) Motion to Consolidate 3) Petition for Writ of Certiorari, 4) Third
Circuit and District Court orders 5) Invalid Subpoena to Testify to the Supreme Court
of the United States:

TO: Attorney General New Jersey
Richard J. Hughes Justice Complex,
25 Market Street - PO Box 085 Trenton,
New Jersey 08625-0085

TO: John C. Gillespie, Esquire
Atty ID # 030831980 P.O. Box 5054
9000 Midlantic Drive, Suite 300
Mount Laurel, NJ 08054

I certify that the foregoing statements made by me are true. I am aware that if any
of the foregoing statements made by me are willfully false. I am subject to
punishment.

Dated: 11/ /f /2020
El Aemer El Mujaddid, Pro Se

2

